                      Limited Official Use




        Security Weaknesses in the Modernization
         Infrastructure Have Not Been Adequately
                         Addressed

                        August 2004

              Reference Number: 2004-20-132




The Treasury Inspector General for Tax Administration
(TIGTA) has designated this audit report as Limited
Official Use (LOU) pursuant to Chapter III, Section 2 of
the Treasury Security Manual (TD P 71-10) entitled,
“Limited Official Use Information and Other Legends.”
Because this document has been designated LOU, it
may only be made available to those officials that have a
need to know the information contained within this
report in the performance of their official duties. This
report must be safeguarded and protected from
unauthorized disclosure; therefore, all requests for
disclosure of this report must be referred to the
Disclosure Section within the TIGTA’s Office of Chief
Counsel.




                      Limited Official Use
                                 Limited Official Use
                Security Weaknesses in the Modernization Infrastructure
                         Have Not Been Adequately Addressed


                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Tom Polsfoot, Audit Manager
Michael A. Howard, Senior Auditor
Jimmie Johnson, Senior Auditor
Jacqueline Nguyen, Senior Auditor
Phung-Son Nguyen, Senior Auditor
Larry Reimer, Senior Auditor
William Simmons, Senior Auditor
Suzanne Noland, Auditor




                                    Limited Official Use
